IN THE SUPREME COURT OF THE UNITED STATES

JAMES ROBERT MILLER,
PETITIONER,
vs.
UNITED STATES OF AMERICA,
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

KATHERINE KIMBALL WINDSOR
Law Office of Katherine Kimball Windsor
65 N. Raymond Avenue, Suite 320
Pasadena, California 91103
(213) 663-9219
katy@windsorlaw.us
Attorney for Petitioner

TABLE OF CONTENTS
PAGE
Table of Authorities ………………………………………………………………..

ii

Question Presented …………………………………………………………………. 1
Opinions Below and Jurisdiction ……………………………………………..

2

Statement of the Case ……………………………………………………………… 3
ARGUMENT: THIS COURT SHOULD RESOLVE THE
IMPORTANT FEDERAL QUESTION OF WHETHER A
PROSECUTOR’S INITIATION OF AN INVESTIGATION IN A
CASE IN WHICH HE HAS A PERSONAL AND FINANCIAL
INTEREST, AND SUBSEQUENT CONTINUED INVOLVEMENT
IN THE CASE EVEN AFTER HIS OFFICE IS RECUSED, WARRANTS
DISMISSAL OF THE INDICTMENT ………………………………………… 8
Conclusion ……………………………………………………………………………… 19
Appendix

TABLE OF AUTHORITIES
FEDERAL CASES

PAGE
CASES

Brady v. Maryland, 373 U.S. 83 (1963) ………………… …………

5

Giglio v. United States, 405 U.S. 150 (1972) ………………………………

5

United States v. Miller, 953 F.3d 1095 (9th Cir. 2020) ……………… passim
United States v. Olsen, 737 F.3d 625 (9th Cir. 2013) …………………..

8

United States v. Restrepo, 930 F.2d 705 (9th Cir. 1991) ……….. ……. 8-9
United States v. Russell, 411 U.S. 423 (1973) ………………………………. 9
United States v. Scrushy, 721 F.3d 1288 (11th Cir. 2013) ……. ……… 10
United States v. Siegelman, 786 F.3d 1322, 1329 (11th Cir. 2015) ….. 10
Young v. U.S. ex re. Vuitton et Fils S.A., 481 U.S. 787 (1987) ……. passim
STATUTES & RULES
5 C.F.R. § 2635.502 …………………………………………………………………… 12,13
28 C.F.R. § 45.2 …………………………………………………………………………. 12
18 U.S.C. § 208 ………………………………………………………. 11
18 U.S.C. § 1343……………………………………………………… 2
28 U.S.C. § 1254(1)……………………………………………………………………. 2

OTHER
Wolfram, C., Modern Legal Ethics 460 (1986) …………………………… 10
Jackson, Robert, The Federal Prosecutor, 24 J. Am. Jud. Soc’y 18
(1940) (address at Conference of United States Attorneys,
Washington, D.C., April 1, 1940) ……………………………………………….. 8
Oral Argument:
https://www.youtube.com/watch?v=7MTL9JFqaSA....................

17

U.S. Attorneys’ Manual § 1-4.320 (F), § 9-27.60 ………………………… 12-13

QUESTION PRESENTED FOR REVIEW
Should this Court grant the petition for writ of certiorari to resolve the important
federal question of whether a prosecutor’s initiation of an investigation in a case in
which he has a personal and financial interest, and subsequent continued
involvement in the case even after his office is recused, warrants dismissal of the
indictment.

1

Petitioner James Robert Miller respectfully prays that a writ of certiorari
issue to review the judgment of the United States Court of Appeals for the Ninth
Circuit filed on March 20, 2020.
OPINIONS BELOW AND JURISDICTION
On August 15, 2014, the grand jury returned an indictment against Mr.
Miller charging him with six counts of wire fraud in violation of 18 U.S.C. § 1343.
On January 30, 2015, the grand jury returned a superseding indictment alleging
five counts of wire fraud in violation of 18 U.S.C. § 1343 and four counts of filing
a false tax return in violation of 26 U.S.C. § 7206(1).
Mr. Miller proceeded to jury trial on June 6, 2017. On June 12, 2017, the
jury returned guilty verdicts on all counts.
On September 11, 2017, the district court sentenced Mr. Miller to a term of
nine months followed by two years of supervised release.
On March 20, 2020, a three-judge panel of the Ninth Circuit Court of
Appeals affirmed Mr. Miller’s convictions in a published opinion. See United
States v. Miller, 953 F.3d 1095 (9th Cir. 2020). Mr. Miller filed a petition for
rehearing en banc, which was denied on June 26, 2020. This Court has jurisdiction
under 28 U.S.C. § 1254(1).

2

STATEMENT OF THE CASE
The FBI’s investigation in this case began in an ordinary way: an agent
received a call alleging an embezzlement. The alleged victim was MWRC Internet
Sales LLC (“MWRC”), located in Redondo Beach, California, and the alleged
embezzler was its President and Managing Partner, James Robert Miller
(“Miller”). What was remarkable about this call was the caller himself – Assistant
United States Attorney Greg Lesser (“AUSA Greg Lesser”), whose father, Russell
Lesser (“Russell Lesser”), was a co-founder of MWRC. Both father and son were
minority shareholders in the company. Furthermore, rather than calling the general
FBI number, AUSA Lesser used the direct line of an agent with whom he was
friendly.
The situation was not an emergency -- the money would readily be
recouped, as an affiliate of MWRC, Body Glove International, LLC, owed to
Miller a debt worth more than Miller’s debt to MWRC. Indeed, Body Glove owed
Miller $300,000 plus interest pursuant to a promissory note signed by Russell
Lesser who was Body Glove’s President. Notwithstanding, the FBI jump-started an
investigation, quickly interviewing witnesses, collecting evidence, and setting up a
wired confrontation between Russell Lesser and Miller where Miller on the spot
agreed to settle the outstanding loan amounts by signing over the debt to MWRC
owed to him by the affiliate. Twenty-two days later, as the investigation wound

3

down, AUSA Lesser finally informed his supervisor of the conflict of interest,
which led to the swift official recusal of AUSA Greg Lesser and the entire Central
District of California United States Attorney’s Office. The case was reassigned to
the United States Attorney’s Office for the Southern District of California in San
Diego, which ultimately sought and obtained an indictment charging Miller with
wire fraud, and later, tax fraud on the theory that the money should have been
reported as income.
However, following the Central District’s recusal, AUSA Greg Lesser
remained an active participant in the case: (1) he contacted FBI Agent Joseph
Swanson, the lead investigator, for information on the case’s status, (2) he used his
official government email account to seek information from his colleagues,
including federal employees with the Securities & Exchange Commission
(“SEC”), about Miller’s prior employment with the SEC, (3) he investigated a
twenty-year-prior civil lawsuit involving Miller, ending in his exoneration, in an
effort to falsely show that Miller was a recidivist, (4) he communicated with
Miller’s own counsel and passed along information to his father who turned it over
to the FBI, and (5) he made suggestions to pressure Miller to plead guilty. When
his position and involvement in the case was reported in local newspapers, AUSA
Lesser drafted a false press release stating that he and his entire office had been
recused “shortly” after learning of Miller’s conduct and falsely denying that he had

4

had any involvement in the case since his recusal. After two years of involvement
in the case using his official government email, AUSA Greg Lesser notified his
family and friends that they should use his personal email to communicate
regarding what he identified as “the Miller case.”
Miller filed a motion for discovery, which was denied by the district court,
as well as a motion to dismiss under the Due Process Clause of the Fifth
Amendment, or, alternatively, under the district court’s supervisory powers. The
district court denied these motions. At trial, the district court forbade any mention
of Greg Lesser’s position as an Assistant United States Attorney.
After trial, the defense learned that the lead case agent, FBI Agent Swanson,
was under official investigation by the FBI’s Office of Professional Responsibility
FBI for an extramarital affair with an AUSA in the office of the recused Central
District of California. This relationship was ongoing during the investigation,
prosecution, and trial of Miller. Agent Swanson had testified at trial for the
government without any disclosure that Swanson was under investigation. The
district court denied Miller’s motion for a new trial on this ground that the
government had violated its obligations under Brady v. Maryland, 373 U.S. 83
(1963) and Giglio v. United States, 405 U.S. 150 (1972), particularly in the context
of the recusal of the Central District United States Attorney’s Office.

5

On appeal, Miller challenged the disturbing and corrupt way in which the
case was initiated and prosecuted. He argued that the district court erred in denying
the defense motions for discovery and dismissal of the indictment based on
flagrant prosecutorial misconduct and misuse of office. A panel of the Ninth
Circuit affirmed Miller’s convictions. See Miller, 953 F.3d 1095. The court
expressed concern about AUSA Lesser’s role in the Miller prosecution, finding
that it “was a clear violation of his ethical and professional duties.” Id. at 1104.
The court noted that “it was totally inappropriate for AUSA Lesser to, at a
minimum, create the appearance of having used his personal contacts in the Bureau
as a means to pull favor of an investigation,” and chided him for waiting three
weeks to disclose his conflict of interest. Id. The court also found “just as
concerning… AUSA Lesser’s apparent continued attempts to involve himself in
the Miller case even after the Central District’s recusal.” Id. at 1104-05. The court
cited AUSA Lesser’s calling of Special Agent Swanson to inquire into the status of
the case and soliciting his colleagues’ help through work email to track down
information on Miller’s employment history. “These attempts represented a
continuing violation of Greg Lesser’s ethical obligations as an Assistant United
States Attorney.” Id. at 1105.
Nonetheless, the court found that “Lesser’s ethical and professional lapses”
did not entitle Miller to dismissal of the indictment because it did not rise to the

6

level of conduct “so grossly shocking and so outrageous as to violate the universal
sense of justice.” Id. at 1105. The court found that the misconduct had no effect on
the case “because the Department of Justice took every step it could reasonably
have been expected to take to cleanse the Miller prosecution of any possible taint
from AUSA Lesser’s involvement” – most significantly, by recusing the office and
appointing a prosecutor from a different district who had “no contact with Lesser
whatsoever.” Id. The court also rejected the use of supervisory powers,
distinguishing this Court’s decision in Young v. U.S. ex re. Vuitton et Fils S.A., 481
U.S. 787 (1987) as a more extreme conflict, finding it significant that “AUSA
Lesser was not in any material respect Miller’s prosecutor,” again emphasizing that
“all the crucial decisions in the investigation and prosecution were made by
Special Agent Swanson and the Southern District AUSA who took over the case
from the Central District.” Id. at 1105-06. In a footnote, the court found that “for
the same reasons, the district court did not abuse its discretion in denying Miller’s
motion for additional discovery ….” Id. at 1106, n. 13.

7

ARGUMENT
THIS COURT SHOULD RESOLVE THE IMPORTANT FEDERAL
QUESTION OF WHETHER A PROSECUTOR’S INITIATION OF AN
INVESTIGATION IN A CASE IN WHICH HE HAS A PERSONAL AND
FINANCIAL INTEREST, AND SUBSEQUENT CONTINUED
INVOLVEMENT IN THE CASE EVEN AFTER HIS OFFICE IS
RECUSED, WARRANTS DISMISSAL OF THE INDICTMENT.
Over 75 years ago, former prosecutor and later-Supreme Court Justice
Robert H. Jackson famously stated, “The prosecutor has more control over life,
liberty and reputation than any other person in America.” See The Federal
Prosecutor, 24 J. Am. Jud. Soc’y 18 (1940) (address at Conference of United
States Attorneys, Washington, D.C., April 1, 1940). When this power is abused,
acknowledging the misbehavior and then forgiving it, erodes trust in the system:
We must send prosecutors a clear message: Betray Brady, give short
shrift to Giglio, and you will lose your ill-gotten conviction.
Unfortunately, the panel’s decision sends the opposite message.
See United States v. Olsen, 737 F.3d 625, 632 (9th Cir. 2013) (Kozinski, C.J., et al.,
dissenting from denial of rehearing en banc). In this case, the Ninth Circuit again
sent the wrong message to prosecutors: there is no consequence to egregious
prosecutorial misconduct. There is no case that meets the “so shocking and so
outrageous as to violate the universal sense of justice” standard of United States v.

8

Restrepo, 930 F.2d 705, 712 (9th Cir. 1991), derived from a comment by this Court
in United States v. Russell, 411 U.S. 423, 431-32 (1973) (there may be situations
“in which the conduct of law enforcement agents is so outrageous that due process
principles would absolutely bar the government from invoking judicial processes
to obtain a conviction.”) Furthermore, a court’s supervisory powers should only be
invoked in cases such as the “extreme” situation recounted in this Court’s opinion
in Young v. U.S. ex rel. Vuitton et Fils S.A., 481 U.S. 787 (1987), where the
prosecutor was also serving as counsel to the party that was the beneficiary of the
injunction that the defendants were being sued for violating. See Miller, 953 at
1105. This Court should grant the petition for writ of certiorari to address the
critical federal question of when to hold prosecutors accountable for their
misconduct.
In Young, this Court warned that “[a]ppointment of an interested prosecutor
creates an appearance of impropriety that diminishes faith in the fairness of the
criminal justice system in general.” Young, 481 U.S. at 811. “Prosecutors ‘have
available a terrible array of coercive methods to obtain information,’ such as
‘police investigation and interrogation, warrants, informers and agents whose
activities are immunized, authorized wiretapping, civil investigatory demands,
[and] enhanced subpoena power,’” misuse of which “would unfairly harass
citizens, give unfair advantage to [the prosecutor’s personal interests], and impair

9

public willingness to accept the legitimate use of those powers.” Id., quoting C.
Wolfram, Modern Legal Ethics 460 (1986) (alterations in Young). Indeed, this
concern is sufficiently strong that this Court concluded, “If a prosecutor uses the
expansive prosecutorial powers to gather information for private purposes, the
prosecution function has been seriously abused even if, in the process, sufficient
evidence is obtained to convict a defendant.” Id. (refusing to apply harmless error
analysis and reversing a conviction for contempt where the contempt prosecutor
was the opposing counsel in the underlying case, with an interest in the outcome of
the prosecution).
Lower courts, including the Eleventh Circuit in two companion cases and
the Ninth Circuit in the present case, have sidelined Young, carving out exceptions
to allow prosecutors to participate in cases in which they have a financial interest
so long as their involvement is “limited.” See, e.g. United States v. Scrushy, 721
F.3d 1288 (11th Cir. 2013); United States v. Siegelman, 786 F.3d 1322, 1329 (11th
Cir. 2015) (decided on Scrushy’s established law of the case). In Scrushy, for
example, the Eleventh Circuit held that “although Young categorically forbids an
interested person from controlling the defendant’s prosecution, it does not
categorically forbid an interested person from having any involvement in the
prosecution.” See Siegelman, 786 F.3d at 1329 (emphasis in original). In the

10

present case, the Ninth Circuit similarly excused an even more egregious
involvement.
As a minority shareholder in MWRC, the relative of other minority
shareholders, and a family friend of the defendant, AUSA Lesser had an interest in
the prosecution of MWRC, which at the very least, created the appearance of
impropriety. AUSA Lesser’s interest was not just pecuniary -- the Lesser family
was concerned about its reputation in the community; it was important to the
Lesser family that Miller be branded a felon and the Lesser family’s reputation
cleared.1 Under these circumstances, AUSA Lesser was prohibited by law from
participating “personally and substantially” in the Miller prosecution, including
actions such as approval, recommendation, the rendering of advice, or
investigation, among others. See 18 U.S.C. § 208(a) (felony punishable by up to
five years in prison for a federal prosecutor to “willfully” “participate[] personally
and substantially as a Government officer or employee, through decision, approval,
disapproval, recommendation, the rendering of advice, investigation, or otherwise,

1

In an email to the government, Russell Lesser expressed that his ideal outcome
would be a no-time felony conviction for Miller. Such a result would put to rest the
belief in their social circle that the case “was just a misunderstanding.” See
Appellant’s Excerpts of Record, Volume IV, page 831 (“ranting” that the Millers
“were treated like some kind of conquering heroes” at a Labor Day Party attended
by mutual friends). Russell Lesser conveyed his and his family’s goals and motives
for the case when he concluded his email: “I think a felony conviction with
probation does that without the jail time as long as it is publicized.”

11

in a judicial or other proceeding, application, request for a ruling or other
determination, contract, claim, controversy, charge, accusation, arrest, or other
particular matter in which, to his knowledge, he … has a financial interest,” absent
prior written permission.) Similarly, Federal Regulations proscribe participation by
a federal employee in a criminal investigation or prosecution “if he has a personal
… relationship with … [a]ny person or organization which he knows has a specific
and substantial interest that would be directly affected by the outcome of the
investigation or prosecution.” 28 C.F.R. § 45.2; see also 5 C.F.R. § 2635.502
(prohibiting federal employee from being involved in any matter that is “likely to
have a direct and predictable effect on the financial interest of a member of his
household” or in which “the circumstances would cause a reasonable person with
knowledge of the relevant facts to question his impartiality in the matter”).
Consistent with these prohibitions, the U.S. Attorneys’ Manual proscribes
any participation “in outside activities that create or appear to create a conflict of
interest with … official duties.” U.S. Attorneys’ Manual § 1-4.320 (F); see also id.
at § 9-27.60 (“In determining whether to commence or recommend prosecution or
take other action against a person, the attorney for the government should not be
influenced by …[t]he possible affect[sic] of the decision on the attorney’s own
professional or personal circumstances”). In order to avoid any impropriety or
appearance of impropriety from the outset, a U.S. Attorney is required to

12

“promptly” notify the General Counsel’s Office or the Executive Office of an issue
that could require recusal because of a personal interest. See id. at § 3-2.170
(recusal requirements for U.S. Attorneys and their offices); § 3-2.220 (AUSAs
must recuse themselves in the same circumstance).
AUSA Lesser violated all of these prohibitions, both before and after
recusal. First, he “willfully” used his role as a government employee to commence
and participate in the investigation in violation of the criminal prohibitions of 18
U.S.C. § 208(a) and federal regulations. His efforts, vis-à-vis his communications
with his contacts at the FBI to ensure that the case was quickly and thoroughly
investigated, and that his personal interest in the case was understood by the agents
constituted “circumstances [that] would cause a reasonable person with knowledge
of the relevant facts to question” the impartiality of the investigation and
prosecution. See 5 C.F.R. § 2635.502 (requiring Executive Branch employees to
obtain agency authorization before participating in matters with even the
appearance of self-interest). Indeed, but for AUSA Lesser’s direct involvement, it
would hardly have been a foregone conclusion that a case of this nature – a
business dispute with no financial loss that had been resolved by the parties -would have been investigated by the FBI. Cf. U.S. Attorneys’ Manual Section 927.230 (“Federal law enforcement resources and Federal judicial resources are not
sufficient to permit prosecution of every alleged offense over which Federal

13

jurisdiction exists”). The immediate and aggressive approach undertaken by the
FBI days after AUSA Lesser’s call was solely a product of his position, office, and
personal efforts to ensure that this personal matter got extraordinary attention.
After getting the investigation underway, AUSA Lesser then failed
“promptly” to disclose the conflict as required by law and the U.S. Attorney
Manual; the majority of the investigation, including the recorded confrontation
with Miller, occurred during this 22-day phase. The swift action by the Central
District as soon as he disclosed the conflict makes clear that the office recognized
the clear conflict and appearance of impropriety, and would have taken the same
action had he disclosed the conflicts when he created the case.
After recusal, AUSA Lesser continued to participate extensively in the areas
of investigation and the rendering of advice in ongoing violations of 18 U.S.C. §
208:
• AUSA Lesser investigated a decades-old civil real estate action involving
Miller, looking for prior bad acts to claim that Miller was a recidivist. In
fact, the civil case ultimately had been dismissed, and Miller exonerated.
The FBI and the Southern District of California United States Attorney’s
Office were informed only of the initial civil judgment, not the fact that it
had been dismissed and Miller exonerated.
• AUSA Lesser spoke to Miller’s first attorney about Miller’s statements to

14

the FBI, and passed that information to his father, Russell Lesser.
• AUSA Lesser gave advice on strategy to pressure Miller to plead guilty,
suggesting that FBI agents interview Miller’s son to plant the idea that his
son might somehow be drawn into the matter.
• AUSA Lesser set up a Google alert on his government email account for
news items on Miller.
• AUSA Lesser drafted a false press release for the U.S. Attorney’s Office in
response to newspaper reports of his involvement in the case, as well as an
email to colleagues stating that he had had no involvement in the matter
since his recusal.
This is only the involvement of which the defense is aware because the district
court denied further discovery, even after AUSA Lesser instructed that he was
switching to communicating about “the Miller case” from his official government
email to his private email.
In the Ninth Circuit, Miller argued that the involvement of AUSA Lesser in
the investigation and prosecution of the case in furtherance of his own personal and
financial interests was a fundamental error for which prejudice could be presumed
and dismissal warranted. Although AUSA Lesser’s full entanglement in the case
remained unknown due to the district court’s improper denial of Miller’s discovery
motion, what had been revealed – a back-channel phone call to the FBI to kick-off

15

the investigation, multiple investigations into Miller’s past employment and record,
plea negotiation strategy advice, and drafting of a false press release – necessitated
dismissal under either due process or the court’s supervisory powers. Miller’s
argument primarily rested upon this Court’s holding in Young, which held that
appointment of an interested prosecutor is structural error requiring automatic
reversal “without regard to the facts or circumstances of the particular case.” Id. at
809-810.
The Ninth Circuit engaged in hand-wringing as to the prosecutor’s
misconduct, but then decided that there was nothing to be done to remedy the
wrong. The court’s reasoning primarily rested on the recusal of the Central District
Office and the case’s handling by the “walled-off” Southern District Office: “And
all the crucial decisions in the investigation and prosecution were made by Special
Agent Swanson and the Southern District AUSA who took the case from the
Central District.” See 953 F.3d at 1105-06. This ignored that the interested
prosecutor continued to communicate, directly and through his father, with Special
Agent Swanson, who remained in charge of the investigation before and after
recusal and continued to communicate with the “disinterested prosecutor.”
Furthermore, Agent Swanson was the subject of an FBI investigation related to an
extramarital affair with an AUSA from the supposedly-recused Central District
Office during the time that he was the lead case agent.

16

By stating that “there is no evidence that AUSA Lesser himself rather than
Special Agent Swanson, was directing the investigation of Miller,” the Ninth
Circuit disregarded that there was no evidence, one way or another, because the
district court refused the defense’s requests for discovery and an evidentiary
hearing. At oral argument, the prosecutor astonishingly told the panel that it
anticipated an evidentiary hearing would have been fruitless, “[t]o the extent the
accusation is that he [AUSA Lesser] engaged in criminal conduct … query
whether he would have been entitled to invoke the Fifth Amendment right at such
an evidentiary hearing ….” See Oral Argument at 27:47, available:
https://www.youtube.com/watch?v=7MTL9JFqaSA. The Justice Department
thereby represented to the Ninth Circuit that the still-employed Assistant United
States Attorney who initiated the case might take the Fifth Amendment concerning
the way in which he illegally initiated and involved himself in the case, a case
which the Department of Justice continued to prosecute.
Even more brazenly, after the opinion issued, AUSA Greg Lesser in his
personal capacity filed a motion to intervene suggesting he would have been
willing to give testimony, had he been asked to do so. See Ninth Circuit Case No.
17-50338, Docket Entry 89 at n. 3; Docket Entry 92 at page 5. The U.S. Attorney’s
Office handling the case had fought relentlessly to prevent the defense from
receiving discovery and the jury from hearing evidence of AUSA Greg Lesser’s

17

involvement, yet his motion to intervene claimed that he had been denied the
“opportunity to address the issue of concern” to the district court. The Ninth
Circuit’s rejection of the need for further fact-finding was wrong.
Whether or not the Justice Department “did every step it could reasonably be
expected to take to cleanse the Miller prosecution from any possible taint from
AUSA Lesser’s involvement,” see Miller, 953 F.3d at 1105, the scandal remains
and will always remain. It was this concern – the “appearance of impropriety that
diminishes faith in the fairness of the criminal justice system in general” -- that
motivated this Court in Young to find structural error in cases involving interested
prosecutors. It is highly unlikely that this case would have been pursued but for the
involvement of AUSA Lesser as prosecution of a no-loss case is exceedingly rare.
This Court should grant certiorari to address the important federal question of
whether criminal behavior in violation of 18 U.S.C. § 208 by a current federal
prosecutor warrants dismissal of an indictment that was brought as a result of that
criminal behavior.

18

CONCLUSION
On the basis of the foregoing, the Court should grant the petition for writ

of

certiorari to resolve this important federal question.

Respectfrrlly Submitted,

Date: September 21, 2020

KATT{ERINE KIMBALL WINDSOR
Law Office of Katherine Kimball Windsor
65 N. Raymond Avenue, Suite 320
Pasaden4 California 9 l 1 03
Attorney for Petitioner

l9

IN THE SUPREME COURT OF THE UNITED STATES

JAMES ROBERTMILLER,

PETITIONE&
vs-

UNITED STATES OF AMERICA,
RESPONDENT.

CERTIFICATE OF WORD COUNT
I, THE UNDERSIGNED, CERTIFY that the Petition for Writ of Certiorari
contains 3,866 words.

Executed on September 27,2020, at Pasadena, Califomia.

KATHERINE KIMBALL WINDSOR

EXHIBIT A

United States v. Miller, 953 F.3d 1095 (2020)
125 A.F.T.R.2d 2020-1311, 20 Cal. Daily Op. Serv. 2471, 2020 Daily Journal D.A.R. 2474

false statement by FBI agent to grand jury was not material;
953 F.3d 1095
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
James Robert MILLER, Defendant-Appellant.
Nos. 17-50338
|
18-50449
|
Argued and Submitted January
10, 2020 Pasadena, California
|
Filed March 20, 2020
Synopsis
Background: Defendant was convicted in the United States
District Court for the Central District of California, George
Wu, J., of wire fraud and filing false tax returns. Defendant
appealed.

Holdings: The Court of Appeals, Jed S. Rakoff, United States
District Judge for the Southern District of New York, sitting
by designation, held that:
wire fraud required intent to deceive and cheat, i.e., to
deprive victim of money or property by means of deception;
overruling, United States v. Shipsey, 363 F.3d 962; United
States v. Treadwell, 593 F.3d 990; United States v. Livingston,
725 F.3d 1141;
wire fraud statute did not require intent to permanently
deprive victim of money or property;
jury found beyond reasonable doubt that defendant did not
really believe that funds he took from company were bona
fide loans, and therefore erroneous wire fraud jury instruction
was harmless;
ethical and professional lapses by assistant United States
attorney (AUSA) in early stages of investigation of defendant
were not so grossly shocking and so outrageous as to violate
universal sense of justice, and therefore defendant was not
entitled to dismissal of indictment on due process grounds
under court's supervisory powers;

impeachment evidence of FBI agent's relationship with
assistant United States attorney in office that was recused
from prosecuting defendant was not sufficiently material to
warrant relief on motion for new trial; and
evidence was sufficient for rational juror to conclude that
defendant utilized at least one interstate wire communication
in furtherance of his scheme to lend himself company money.
Affirmed.
Attorneys and Law Firms
*1098 Katherine Kimball Windsor (argued), Law Office
of Katherine Kimball Windsor, Pasadena, California, for
Defendant-Appellant.
Rebecca Suzanne Kanter (argued), Assistant United States
Attorney; Daniel E. Zipp, Special Attorney for the United
States; Robert S. Brewer Jr., United States Attorney; William
P. Barr, United States Attorney General; United States
Attorney’s Office, San Diego, California; for PlaintiffAppellee.
Appeal from the United States District Court for the Central
District of California, George Wu, District Judge, Presiding,
D.C. No. 2:14-cr-00471-GW-1
Before: Paul J. Watford and Mark J. Bennett, Circuit Judges,
and Jed S. Rakoff, * District Judge.

OPINION
RAKOFF, District Judge:
A jury in the Central District of California convicted
defendant-appellant James Miller of five counts of wire fraud
and four counts of filing false tax returns, finding that he
had embezzled over $300,000 from the company for which
he served as managing member and president. Miller now
appeals his conviction, as well as the district court’s denial of
various pre- and post-trial motions seeking dismissal of the
indictment, additional discovery, and other forms of relief.
This appeal presents two main questions. The first is whether
the jury charge misstated the law by instructing that wire

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Miller, 953 F.3d 1095 (2020)
125 A.F.T.R.2d 2020-1311, 20 Cal. Daily Op. Serv. 2471, 2020 Daily Journal D.A.R. 2474

fraud under 18 U.S.C. § 1343 requires the intent to “deceive
or cheat” rather than the intent to “deceive and cheat.” We
conclude that the charge was erroneous. Several *1099 other
circuit courts have long held that the crime of wire fraud
requires the specific intent to utilize deception to deprive
the victim of money or property, i.e., to cheat the victim,
and we now align the law of the Ninth Circuit with that of
the other circuits and with recent Supreme Court precedent.
Nevertheless, we find that the erroneous instruction was
harmless in this case.
The second question here presented is whether an Assistant
U.S. Attorney (AUSA) from the Central District of California
who had a personal and financial interest in the outcome of
this case impermissibly tainted the prosecution by involving
himself in the early stages of the investigation and then
continuing to express interest in the case even after the entire
U.S. Attorney’s Office for the Central District of California
recused itself from the matter. We are deeply troubled by
this Assistant’s disregard of elementary prosecutorial ethics.
But we also note that as soon as the Department of Justice
became aware of the impropriety, it took every necessary step
to cure any resulting taint, including turning over the entire
prosecution of the case to disinterested prosecutors from the
Southern District of California. We therefore hold that the
misconduct of the Central District Assistant does not entitle
Miller to any relief.
Because we also find Miller’s remaining arguments to be
without merit, we affirm his conviction.

Background
Trial testimony established that, during the relevant time
period, defendant-appellant James Miller served as the
president and managing member of an online retail platform
called MWRC Internet Sales, LLC. Some years earlier, an
entrepreneur named Russell Lesser, who was Miller’s longtime friend, had founded MWRC and recruited Miller to work
for the company. As he took on more senior roles, Miller’s
job responsibilities grew to include management of MWRC’s
day-to-day finances, with limited oversight by Russell Lesser.
In 2009, Miller, who was experiencing personal financial
difficulties, began writing himself checks from one of
MWRC’s bank accounts. He did so without the knowledge
or consent of Russell Lesser or anyone else at MWRC. By
the end of 2010, he had issued a total of about $130,000 to

himself and had paid back roughly $30,000. In March 2011,
Miller disclosed to Russell Lesser a hint of what he had done,
but falsely told Lesser that he had only written himself checks
totaling $30,000. Upon hearing this, Lesser told Miller, “you
can’t do that. That is stealing.” Miller then expressed remorse
and promised to never write himself checks again.
Miller only kept this promise for two months. He then
wrote himself another $3,000 check on April 29, 2011, and
over the rest of 2011 and 2012, wrote himself around fifty
additional checks from MWRC, totaling additional amounts
of another $200,000 or so. To disguise his payments, Miller
often listed them in MWRC’s ledger as internal transfers
between the company’s two bank accounts. Russell Lesser
eventually noticed that these ledger entries did not correspond
to actual deposits into the purported recipient account. He
then obtained bank records and cancelled checks, which led
to his discovery of the continuing check-writing fraud. By the
time of this discovery, Miller had embezzled about $330,000
from MWRC. 1 Miller had also failed to report *1100 any
of this money as income on his tax returns.
Based on the foregoing, a grand jury indicted Miller on five
counts of wire fraud in violation of 18 U.S.C. § 1343 and
four counts of filing false federal tax returns in violation of
26 U.S.C. § 7206(1). Miller pled not guilty on all counts and
proceeded to trial in June 2017. His chief defense was that
he always intended to (and eventually did) pay back the full
amount he had taken from MWRC. He also argued that he
always believed the funds to be loans that he was authorized
to issue to himself. At the conclusion of trial, however, the
jury convicted Miller on all counts.
On September 11, 2017, the trial court sentenced Miller to
nine months’ imprisonment, to run concurrently on all counts,
two years of supervised release, and a special assessment of
$900. Miller is on bail pending disposition of this appeal.
At trial, Miller requested a jury instruction stating that, to
be guilty of wire fraud, he must have intended to “deceive
and cheat” MWRC. The trial court, however, delivered the
Ninth Circuit’s model jury instruction, which states that
wire fraud instead requires only the intent to “deceive or
cheat” (emphasis supplied) the victim. As his first issue on
this appeal, Miller argues that this jury instruction misstated
the law.
The facts that give rise to Miller’s second issue on appeal
occurred early in the investigation of this case. Indeed, Miller

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Miller, 953 F.3d 1095 (2020)
125 A.F.T.R.2d 2020-1311, 20 Cal. Daily Op. Serv. 2471, 2020 Daily Journal D.A.R. 2474

goes so far as to speculate about whether law enforcement
would even have investigated him in the first place were
it not for the early involvement of Russell Lesser’s son,
Gregory (“Greg”) Lesser, an AUSA in the U.S. Attorney’s
Office for the Central District of California and himself a
1.25% member of MWRC. Upon learning from his father
of Miller’s embezzlement, Greg Lesser called a friend at the
FBI to report Miller. 2 This outreach, Miller argues, may
well have expedited, or otherwise influenced, the agency’s
decision to open an investigation and to begin coordinating
with prosecutors in the Central District office. In addition,
over the next three weeks, the FBI arranged a meeting at
which Russell Lesser, wearing a wire, confronted Miller about
his check-writing, leading to some admissions from Miller. 3
It was not until approximately three weeks after he had
first called his friend in the FBI that Greg Lesser reported
his obvious conflict-of-interest in the Miller case to his
supervisor in the Central District. At that point the supervisor
recused the entire office and turned over the matter to the U.S.
Attorney’s Office for the Southern District of California. 4
However, unbeknownst to the Southern District prosecutors,
Greg Lesser continued for a while to maintain a tangential
but still inappropriate level of involvement in the case. For
example, as detailed below, AUSA Lesser had additional
direct and indirect contact with Special Agent Swanson
concerning the progress of the case.
*1101 The Government disclosed all of this to Miller well
in advance of trial, at which point Miller filed a motion
for additional discovery into Greg Lesser’s involvement in
the case. The district court denied this motion except to
order the Government to produce the grand jury testimony
from Miller’s indictment proceedings in order to confirm that
the grand jury was not presented with testimony that was
tainted by Greg Lesser’s involvement. After the Government
produced the grand jury transcripts, Miller filed a motion to
dismiss the indictment with prejudice on two grounds. First,
Miller moved to dismiss the indictment under the Due Process
Clause of the Fifth Amendment or, alternatively, under the
trial court’s supervisory powers, because of Greg Lesser’s
role as an interested prosecutor. See United States v. Restrepo,
930 F.2d 705, 712 (9th Cir. 1991). Second, Miller moved
to dismiss the indictment under the Due Process Clause
because of allegedly false testimony that was presented to the
grand jury. The district court denied both grounds, leading to
Miller’s second main issue on this appeal.

Discussion
I. The Jury Instructions
At trial, the Government requested that the court charge the
jury that, to be guilty of wire fraud, a defendant must have
acted with the intent to “deceive or cheat.” As thus stated in
the alternative, Miller could theoretically have been convicted
of deceiving MWRC (as, for example, through the false
ledger entries), even if he had no intent to cheat MWRC, that
is to, “deprive [MWRC] of something valuable by the use
of deceit or fraud,” Merriam-Webster’s Collegiate Dictionary,
10 th ed. (1997). The defense, based on its view that Miller’s
alleged belief that his withdrawals were simply “loans” meant
that he lacked an intent to cheat, requested an instruction that
wire fraud requires the intent to “deceive and cheat.” Over
the defense’s objection, but in line with existing Ninth Circuit
pattern instructions, the district court gave the Government’s
proposed instruction, and Miller now appeals his conviction
on the ground that this instruction misstated the law.
We review de novo whether a trial court’s jury instructions
correctly stated the elements of a crime, United States v.
Anguiano-Morfin, 713 F.3d 1208, 1209 (9th Cir. 2013), and
we have no trouble concluding that this instruction was
erroneous. Like the mail fraud statute from which it is
derived, the wire fraud statute, in plain and simple language,
criminalizes the use of interstate wires to further, not mere
deception, but a scheme or artifice to defraud or obtain money
or property, i.e., in every day parlance, to cheat someone out
of something valuable. It follows that to be guilty of wire
fraud, a defendant must act with the intent not only to make
false statements or utilize other forms of deception, but also
to deprive a victim of money or property by means of those
deceptions. In other words, a defendant must intend to deceive
and cheat.
This has long been the law of several other circuits. For
example, in United States v. Walters, 997 F.2d 1219 (7th Cir.
1993), the court reviewed the conviction for mail fraud 5 of
a sports agent who had defrauded the NCAA, not by stealing
its property, but by inducing college athletes to sign secret
representation contracts in violation of the Association’s
rules. In other words, Walters had deceived, but not *1102
cheated, his victim. The Seventh Circuit reversed Walters’
conviction, holding that the statute requires “a scheme to
obtain money or other property from the victim,” and that
“[l]osses that occur as byproducts of a deceitful scheme do
not satisfy the statutory requirement.” Id. at 1227.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Miller, 953 F.3d 1095 (2020)
125 A.F.T.R.2d 2020-1311, 20 Cal. Daily Op. Serv. 2471, 2020 Daily Journal D.A.R. 2474

Other circuits have held similarly. The Second Circuit had
already concluded as much some two decades before Walters,
holding in United States v. Regent Office Supply Co., 421
F.2d 1174, 1180 (2d Cir. 1970) that “the government can[not]
escape the burden of showing that some actual harm or
injury [to the victim’s money or property] was contemplated
by the schemer.” See also United States v. Starr, 816 F.2d
94, 101 (2d Cir. 1987) (“[I]t is error for a trial judge to
charge a jury that contemplated harm is not an element of
fraudulent intent.”). The D.C. Circuit has also agreed, at
least in dicta. United States v. Lemire, 720 F.2d 1327, 1335–
36 (D.C. Cir. 1983) (“[T]here is judicial consensus about
certain requisite elements of a scheme to defraud. ... [T]he
scheme to defraud must threaten some cognizable harm to
its target. ...”). See also, e.g., United States v. Allen, 491
F.3d 178, 187 (4th Cir. 2007) (upholding a jury instruction
that, for the purposes of the wire fraud statute, to act with
the intent to defraud means “to act knowingly and with the
specific intent to deceive, for the purposes of causing some
financial or property loss to another”); 2 Sand et al. Modern
Federal Jury Instructions, Instruction 44-5 (2019) (“ ‘Intent
to defraud’ means to act knowingly and with the specific
intent to deceive, for the purpose of causing some financial or
property loss to another.”).
The Ninth Circuit, on the other hand, employs the “deceive
or cheat” language in its model jury instruction on wire fraud,
Manual of Modern Criminal Jury Instructions for the District
Courts of the Ninth Circuit § 8.124 (2019), and this court
has upheld this instruction on at least three occasions in the
past. United States v. Shipsey, 363 F.3d 962, 967 (9th Cir.
2004); United States v. Treadwell, 593 F.3d 990, 998–99 (9th
Cir. 2010); see United States v. Livingston, 725 F.3d 1141,
1148 (9th Cir. 2013). Nor is this the only circuit that uses the
“deceive or cheat” language. See Treadwell, 593 F.3d at 999
(citing the model instructions of the Third, Fifth, Sixth, Tenth,
and Eleventh Circuits as support for the “deceive or cheat”
formulation).
But we think that these holdings are no longer tenable in
light of the Supreme Court’s intervening ruling in Shaw v.
United States, ––– U.S. ––––, 137 S. Ct. 462, 196 L.Ed.2d
373 (2016). Indeed, another panel of this court has already
acknowledged as much in a non-precedential memorandum
disposition. United States v. George, 713 F. App'x 704, 705
(9th Cir. 2018). 6 In Shaw, the Supreme Court considered a
jury instruction defining “scheme to defraud” for the purpose
of the bank fraud statute 7 as “any deliberate plan of action

or course of conduct by which someone intends to deceive,
cheat, or deprive a financial institution of something of
value.” Id. at 469. The Court cast serious doubt on the
accuracy of this instruction on the ground that “the scheme
must be one to deceive the bank and deprive it of something
of value.” 8 Id. We think that this *1103 language and
reasoning clearly control here. Although the wording of
Shaw’s instruction was not identical to Miller’s, both arguably
allowed a jury to convict “if it found no more than that [the
defendant’s] scheme was one to deceive the [victim] but not
to ‘deprive’ the [victim] of anything of value.” Id. In light of
Shaw, we therefore overrule our prior cases on this question
and hold that wire fraud requires the intent to deceive and
cheat — in other words, to deprive the victim of money or
property by means of deception.
Despite this error in the jury charge, however, we affirm
Miller’s conviction on the ground that the error was harmless.
See United States v. Wilkes, 662 F.3d 524, 544 (9th Cir.
2011). It is true that the Government emphasized the
“deceive or cheat” distinction in its summation, arguing to
the jury that Miller’s false checkbook entries were sufficient
to demonstrate intent to deceive, and therefore sufficient
evidence that Miller had the mens rea for wire fraud. 9
Nevertheless, we still find beyond a reasonable doubt that the
jury would have convicted Miller even if it had been properly
instructed, for two reasons:
First, Miller’s primary defense — that he was not guilty of
wire fraud because he intended to pay back the funds he
deceptively obtained from MWRC — is not a defense at all.
In United States v. Treadwell, this court already considered
and rejected the argument that the wire fraud statute requires
an intent to permanently deprive a victim of money or
property. 10 593 F.3d at 996–98 (citing with approval United
States v. Hamilton, 499 F.3d 734, 736 (7th Cir. 2007) (“If
you embezzle from your employer you are not excused just
because you had an honest intention of replacing the money,
maybe with interest ....”). Intent to repay, therefore, is not a
defense to wire fraud.
Second, Miller’s only other material defense was that, at
the very time he obtained the funds, he believed the funds
to be bona fide loans that he was fully authorized to issue
to himself, albeit by means of the deceptive ledger entries.
This defense did, in effect, raise the claim that Miller, while
intending to deceive, did not intend to cheat. But we are
persuaded, based on other language in the jury instructions,
that there is no way the jury made this determination. Most

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Miller, 953 F.3d 1095 (2020)
125 A.F.T.R.2d 2020-1311, 20 Cal. Daily Op. Serv. 2471, 2020 Daily Journal D.A.R. 2474

importantly, the district court’s instruction on the “scheme to
defraud” element of the wire fraud counts told the jury that
it must find that Miller “knowingly engaged in a scheme or
plan to defraud or obtain money or property by means of
false or fraudulent pretenses, representations, or promises.”
If the jury had believed that there was any inconsistency
between this language and the subsequent language about
“deceive or cheat,” they undoubtedly would have sought
further instruction, which they did not. Further, any notion
that the jury thought that Miller was guilty of deception,
but not cheating, because he allegedly had permission to
give *1104 himself loans from company funds is flatly
contradicted by the jury’s conviction on all the tax counts.
This is because the jury was expressly instructed that “[t]he
proceeds of a loan are not taxable income,” and that Miller
could not be convicted of filing a false tax return unless he
did so “willfully.” So instructed, the jury could only have
convicted Miller of the tax counts if they found beyond a
reasonable doubt that he did not really believe that the funds
he took from the company were bona fide loans. For these
reasons, we hold that the error in the jury instructions was
harmless.
II. The Interested Prosecutor
“A prosecutor has the responsibility of a minister of justice
and not simply that of an advocate.” Model Rules of
Professional Conduct Rule 3.8 Cmt. 1. She represents not her
own interest but “the interest of society as a whole.” Ferri v.
Ackerman, 444 U.S. 193, 202–03, 100 S.Ct. 402, 62 L.Ed.2d
355 (1979). For this very reason, the Department of Justice
holds United States Attorneys and their Assistants to exacting
ethical standards, not least with respect to actual and apparent
conflicts of interest. See, e.g., U.S. Attorneys’ Manual §
1-4.320(F) (“Employees may not engage in outside activities
that create or appear to create a conflict of interest with their
official duties. Such a conflict exists when the outside activity
would ... create an appearance that the employee’s official
duties were performed in a biased or less than impartial
manner.”). Moreover, federal law itself contains a criminal
prohibition on prosecutors and other government employees
“participat[ing] personally and substantially” in a “judicial or
other proceeding” in which they have an interest. 18 U.S.C.
§ 208.
AUSA Greg Lesser’s role in the Miller prosecution, however
limited, was a clear violation of his ethical and professional
duties. Nothing, of course, prevented his father from reporting
the embezzlement to the FBI, as through a public tip line or
the like. But it was totally inappropriate for AUSA Lesser

to, at a minimum, create the appearance of having used his
personal contacts in the Bureau as a means to pull strings
in favor of an investigation. 11 See U.S. Attorneys’ Manual
§ 9-27.260(A)(3) (“In determining whether to commence or
recommend prosecution or take other action against a person,
the attorney for the government should not be improperly
influenced by ... [t]he possible affect [sic] of the decision on
the attorney’s own professional or personal circumstances.”).
And his errors compounded: after helping to initiate the Miller
investigation, Lesser faced an obvious duty to report his
conflict of interest (and presumptive recusal) to his supervisor
as soon as possible. See U.S. Attorney’s Manual § 3-2.170 (“A
United States Attorney who becomes aware of circumstances
that might necessitate his or her recusal or that of the entire
office, should promptly notify [the general counsel’s office] to
discuss whether a recusal is required.”) (emphasis supplied);
id. § 3-2.220 (same recusal rules apply to AUSAs). Instead,
inexplicably, he waited three weeks to disclose his conflict,
even while his father was, at the behest of the FBI, secretly
recording a conversation with Miller.
Just as concerning are AUSA Lesser’s apparent continued
attempts to involve himself in the Miller case even after the
*1105 Central District’s recusal. For example, in January
2013, AUSA Lesser called Special Agent Swanson to inquire,
“in his capacity as part-owner (or part-shareholder) of
MWRC,” about the status of the case. 12 At some point
after that, Greg Lesser solicited his colleagues’ help through
his work e-mail to track down information on Mr. Miller’s
employment history. These attempts represented a continuing
violation of Greg Lesser’s ethical obligations as an Assistant
United States Attorney.
The question before us, however, is not whether AUSA Lesser
acted improperly, which is clear. Our question is whether
Lesser’s ethical and professional lapses entitle Miller to
dismissal of the indictment. We review the district court’s
denial of Miller’s motion to dismiss on Due Process grounds
de novo, and we review for abuse of discretion the district
court’s decision not to dismiss the indictment under its
supervisory powers. United States v. Barrera-Moreno, 951
F.2d 1089, 1091 (9th Cir. 1991); United States v. Restrepo,
930 F.2d 705, 712 (9th Cir. 1991).
Although we have held that a prosecutor may violate a
defendant’s Due Process rights through conduct that “is so
grossly shocking and so outrageous as to violate the universal
sense of justice,” Restrepo, 930 F.2d at 712 (quoting United
States v. O’Connor, 737 F.2d 814, 817 (9th Cir. 1984)),

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Miller, 953 F.3d 1095 (2020)
125 A.F.T.R.2d 2020-1311, 20 Cal. Daily Op. Serv. 2471, 2020 Daily Journal D.A.R. 2474

we think that the facts of this situation do not rise to that
level, chiefly because the prosecutorial improprieties had no
material effect on the case and because the Department of
Justice took every step it could reasonably have been expected
to take to cleanse the Miller prosecution of any possible
taint from AUSA Lesser’s involvement. Most significantly,
after the Central District of California recused itself from
any further involvement in the prosecution, an AUSA from
the Southern District of California took over the case. She
had no contact with Lesser whatsoever, and she came to an
independent decision on whether and how to charge Miller.
And although AUSA Lesser’s limited attempts to involve
himself in the case after the Central District’s recusal were
more than sufficient to create an appearance of impropriety,
there is no indication that Lesser in any way influenced the
prosecutor who was actually in charge of the case at that
time. Further, even during the three weeks before the Central
District’s recusal, there is no evidence that AUSA Lesser
himself, rather than Special Agent Swanson, was directing the
investigation of Miller.
On the same analysis, the facts of this situation do not
implicate the Supreme Court’s holding in Young v. U.S. ex
rel. Vuitton et Fils S.A., 481 U.S. 787, 107 S.Ct. 2124, 95
L.Ed.2d 740 (1987), the chief case on which Miller relies.
In Young, the Court exercised its supervisory powers to
reverse the criminal contempt convictions of four defendants
because the prosecutor who prosecuted the case and obtained
those convictions was conflicted. Indeed, the conflict was
extreme, as the prosecutor, specially appointed by the district
court, was also serving as counsel to the party that was
the beneficiary of the injunction that defendants were being
prosecuted for civilly violating. Id. at 790, 107 S.Ct. 2124.
By contrast, AUSA Lesser was not in any material respect
Miller’s prosecutor. At most, AUSA Lesser may have induced
the FBI to look at the case more closely than it might
otherwise have in the case’s early stages. In any event, given
the blatant evidence of embezzlement, it would not have
taken much to catch the FBI’s attention if, instead, it had
been reported by Russell Lesser instead of Greg Lesser,
as it most likely would have been. And all the crucial
decisions in the investigation *1106 and prosecution were
made by Special Agent Swanson and the Southern District
AUSA who took over the case from the Central District. The
district court therefore did not abuse its discretion in denying
Miller’s motion to dismiss the indictment under the court’s
supervisory powers. 13

Miller also argues that the district court erred in denying
his motion to dismiss on the ground that the grand jury
received materially false testimony. 14 “[T]he Due Process
Clause of the Fifth Amendment is violated when a defendant
has to stand trial on an indictment which the government
knows is based partially on perjured testimony, when the
perjured testimony is material, and when jeopardy has not
attached.” United States v. Basurto, 497 F.2d 781, 785 (9th
Cir. 1974). But here, the false testimony Miller cites —
a statement by an FBI agent that Russell Lesser was the
majority shareholder of MWRC (while, in reality, Russell
Lesser was simply a plurality shareholder, owning an 18%
interest in the company) — was not remotely material. 15
The defense argues that the testimony was material because
it gave the impression that Russell Lesser had total authority
over MWRC, thus potentially leading the grand jury to
discount the idea that Miller believed he was authorized to
lend himself company money. But the grand jury also heard
testimony that Miller had admitted to Lesser that he had
taken the funds without authorization. Moreover, the petit jury
also considered and rejected this defense at trial, therefore
rendering any error in the grand jury testimony harmless.
United States v. Bingham, 653 F.3d 983, 998 (9th Cir. 2011)
(holding that, after a petit jury convicted the defendant on
all counts, “any error in the grand jury proceeding connected
with the charging decision is deemed harmless beyond a
reasonable doubt”) (quoting People of Guam v. Muna, 999
F.2d 397, 399 (9th Cir. 1993)). The district court accordingly
did not err in rejecting this Due Process claim.
III. Additional Arguments
Miller raises two additional arguments, but both are
unpersuasive and do not provide a basis for reversal.
First, Miller challenges the district court’s denial of his
post-conviction motion for an indicative ruling on additional
discovery and/or a new trial based on the disclosure of a
romantic relationship between Special Agent Swanson and
an AUSA in the recused Central District office. 16 Defense
counsel argues that such *1107 evidence would have been
material at trial and speculates that “[t]he relationship may
also have resulted in a significant breach of the recusal order”
by creating a back channel to Greg Lesser.
Even if we apply de novo review, 17 we hold that the district
court correctly denied Miller’s motion for a new trial because
Special Agent Swanson’s failure to disclose his relationship
with an AUSA is not sufficiently material to warrant relief.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Miller, 953 F.3d 1095 (2020)
125 A.F.T.R.2d 2020-1311, 20 Cal. Daily Op. Serv. 2471, 2020 Daily Journal D.A.R. 2474

This would have served as impeachment evidence at most,
and even if the jury had deeply discounted Swanson’s
testimony, we are convinced that they still would have
convicted Miller. It is true that Swanson was an important
Government witness; perhaps most significantly, Swanson
testified that Miller had admitted to the FBI that he knew that
writing himself checks from MWRC’s account was wrong.
But this testimony was far from the only evidence establishing
Miller’s guilt. Not least among the other evidence, the jury
still had the wire recording of the November 28, 2012
conversation between Russell Lesser and Miller, in which
Miller admits to Lesser’s characterization of his activities
as stealing and embezzlement, albeit “[w]ith an intention
to repay” (which, as noted, is no defense). The jury also
heard Lesser’s testimony about Miller’s 2011 confession
and subsequent continued check-writing, as well as Miller’s
handwritten ledger entries that disguised his payments to
himself as transfers from one of MWRC’s bank accounts
to another. All of this evidence was highly probative of
Miller’s guilt, and we accordingly do not find a “reasonable
probability” that the jury would have acquitted Miller if it had
heard the impeachment evidence about Swanson. 18 Kyles v.
Whitley, 514 U.S. 419, 421–22, 115 S.Ct. 1555, 131 L.Ed.2d
490 (1995).
On the same analysis, we hold that the district court did not
abuse its *1108 discretion in denying Miller’s motion for
additional discovery, since any such discovery would not have
produced evidence material to the outcome of the trial. See
United States v. Rivera-Relle, 333 F.3d 914, 918 (9th Cir.
2003). Finally, any suggestion that the Central District AUSA
was serving as a conduit for nefarious communications
between Special Agent Swanson and Greg Lesser is pure
speculation by defense counsel and does not merit relief.
Second, Miller appeals the district court’s denial of his motion
under Fed. R. Crim. P. 29(c) for a judgment of acquittal on
the wire fraud counts based on insufficient evidence of an

interstate wire communication. Rule 29(c) requires a trial
court to enter a judgment of acquittal if the Government
fails to present sufficient evidence to sustain a conviction.
Sufficient evidence is that which, “view[ed] ... in the light
most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond
a reasonable doubt.” United States v. Dearing, 504 F.3d 897,
900 (9th Cir. 2007) (internal quotation marks and citations
omitted). Because defense counsel made this motion at the
close of the Government’s evidence and then renewed the
motion after the verdict, this Court reviews the district court’s
ruling de novo. Id.
We are satisfied that the Government introduced more than
sufficient evidence for a rational juror to conclude that
Miller utilized at least one interstate wire communication
in furtherance of his scheme. The Government called
Lynn Flanagan, the former operations manager at the bank
where MWRC maintained the account from which Miller
fraudulently withdrew funds. She testified that all checks
deposited into or drawn out of accounts at the bank are
processed via interstate wires, either through the Federal
Reserve Bank in Atlanta or Kansas City or through a clearing
bank in Wisconsin called FCN. 19 This testimony is sufficient
evidence to establish the interstate wire element of the § 1343
offenses beyond a reasonable doubt.

Conclusion
We have considered Miller’s remaining arguments and find
them totally without merit. Accordingly, for the foregoing
reasons, the judgment of the district court is AFFIRMED.
All Citations
953 F.3d 1095, 125 A.F.T.R.2d 2020-1311, 20 Cal. Daily Op.
Serv. 2471, 2020 Daily Journal D.A.R. 2474

Footnotes

*
1
2

The Honorable Jed S. Rakoff, United States District Judge for the Southern District of New York, sitting by designation.
At this point, Miller had repaid to MWRC about $95,000 of the embezzled funds. Of course, subsequent repayment is of
itself no defense to embezzlement or wire fraud, though it may bear on the issue of intent.
Specifically, AUSA Lesser reached out to a friend at the FBI, who put the Lessers in touch with another agent. That agent
in turn referred the case to Special Agent Joseph Swanson “to open an investigation.” Shortly thereafter, Swanson called
Greg Lesser to inform him that the FBI would be reaching out to the U.S. Attorney’s Office about the Miller matter.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Miller, 953 F.3d 1095 (2020)
125 A.F.T.R.2d 2020-1311, 20 Cal. Daily Op. Serv. 2471, 2020 Daily Journal D.A.R. 2474

3
4
5
6
7
8
9
10

11
12
13
14
15
16

17

18

At this meeting, Lesser asked, “[D]o you admit that’s money that’s been stolen?” and Miller replied, “Yes. Well ... [w]ith
an intention to repay.” Miller also acknowledged that he had used some of the money to make payments on his personal
mortgage and credit card debt.
The Southern District prosecutors who handled the matter still, of course, prosecuted the case in the Central District,
where most of the underlying events occurred.
Although Walters was prosecuted under the mail fraud statute, 18 U.S.C. § 1341, courts typically interpret the mail and
wire fraud statutes the same way, as their language is largely identical. See, e.g., United States v. Kuecker, 740 F.2d
496, 504 (7th Cir. 1984); United States v. Greenberg, 835 F.3d 295, 305 (2d Cir. 2016).
But see United States v. Stewart, 728 F. App'x 651, 653 (9th Cir. 2018) (affirming the “deceive or cheat” instruction
without analyzing it in light of Shaw).
18 U.S.C. 1344(1). Because the bank, mail, and wire fraud statutes all use highly similar language, we take the Supreme
Court’s reasoning in Shaw to apply to the wire fraud statute as well.
The Court remanded the case to the Ninth Circuit for us to determine whether the instruction was lawful. 137 S. Ct. at
470. On remand, a panel of this court held that this argument was not properly preserved below, and, in any case, any
error in the instruction was harmless. United States v. Shaw, 885 F.3d 1217 (9th Cir. 2018).
The falsified ledger entries were, to be sure, also strongly probative of Miller’s intent to cheat, and the jury may properly
have considered them in that light.
To be clear, we overrule Treadwell in part, insofar as we hold that the “deceive or cheat” instruction misstates the
requirement that wire fraud requires the intent to deprive a victim of money or property, at least momentarily. But nothing
in Shaw compels us to go so far as to hold that wire fraud requires an intent to permanently deprive the victim of property.
We know of no cases that so hold, and appellant cites none.
We observe, as does Miller, that the FBI did not produce any “302 reports” detailing its contacts with Greg Lesser, as it
would typically have done to memorialize contacts with a complaining witness. This implies that the FBI agents viewed
Greg Lesser, at least initially, not as a witness, but as the prosecutor.
Special Agent Swanson merely replied that the investigation was ongoing.
For the same reasons, the district court also did not abuse its discretion in denying Miller’s motion for additional discovery
beyond that discussed below. See United States v. Mazzarella, 784 F.3d 532, 537 (9th Cir. 2015).
The district court ordered the Government to produce these transcripts so that the defense could examine “if, for example,
Lesser was creating false evidence or something of that sort.”
Miller also points to testimony heard by the grand jury that he had only paid back $40,000 of the roughly $330,000 he
took from MWRC, while in fact he eventually paid back the entire amount. This is also immaterial, however, because
failure to repay is not an element of wire fraud, and intent to repay is not a defense. See supra pp. 1103–04.
In October 2017, after Miller’s conviction and sentencing, the U.S. Attorney’s Office for the Southern District of
California learned of an investigation by the Justice Department’s Office of Professional Responsibility (OPR) into this
previously-undisclosed relationship. The Southern District prosecutors on the Miller case informed defense counsel of
this development about a month later, as this appeal was pending. In response, Miller requested discovery from the
Government including the name of the AUSA; any communications between this AUSA, Swanson, and/or Greg Lesser
concerning the Miller case; and any reports or conclusions from the OPR investigation. The Government voluntarily
provided the name of the AUSA, told defense counsel that there were no such communications on their respective
government email accounts and that this AUSA had not worked on the Miller case, and noted that the OPR investigation
into Swanson had been closed. The district court later denied the motion.
As a threshold matter, the parties disagree on how to characterize Miller’s claim. The defense argues that it is a motion
for a new trial based on a Brady violation, see Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963),
while the Government argues that it is a Fed. R. Crim. P. 33 motion for a new trial based on newly-discovered evidence.
The parties would therefore have us apply different standards of review: we would review the district court’s denial of
a motion for a new trial based on a Brady violation de novo, United States v. Pelisamen, 641 F.3d 399, 408 (9th Cir.
2011), while we would review the district court’s denial of a motion for a new trial based on newly discovered evidence
for abuse of discretion, United States v. Hinkson, 585 F.3d 1247, 1259 (9th Cir. 2009). For the sake of argument, we
apply the standard more favorable to the defense.
The parties’ dispute about whether Miller has stated a Brady claim also impacts the materiality standard that we apply.
Brady evidence is material if the admission of the suppressed evidence would result in a “reasonable probability” of an
acquittal. Kyles, 514 U.S. at 421–22, 115 S.Ct. 1555, i.e., “a probability sufficient to undermine confidence in the outcome
of the trial.” United States v. Price, 566 F.3d 900, 911 (9th Cir. 2009) (citing United States v. Bagley, 473 U.S. 667, 682,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Miller, 953 F.3d 1095 (2020)
125 A.F.T.R.2d 2020-1311, 20 Cal. Daily Op. Serv. 2471, 2020 Daily Journal D.A.R. 2474

19

105 S.Ct. 3375, 87 L.Ed.2d 481 (1985) (plurality)) (internal quotation marks omitted). In contrast, the bar for materiality in
a Rule 33 claim is higher. To win a new trial based on newly-discovered evidence, the defendant must show, among other
requirements, that “the new evidence is not merely ... impeaching;” and that it “would probably produce an acquittal.”
United States v. Jackson, 209 F.3d 1103, 1106 (9th Cir. 2000). We need not reach the question of whether Miller has
demonstrated Brady suppression; since we hold that the evidence is not material under the Brady standard, a fortiori it
is also not material under the Rule 33 standard.
Defense counsel makes much of the fact that Flanagan’s testimony as to the location of FCN was, read literally,
ambiguous. Referring to FCN (the “Fiserv Clearing Network”), the Government asked Flanagan, “Where is Five Serve
[sic] located,” and Flanagan answered Wisconsin. But since Flanagan never explicitly defined the acronym FCN, defense
counsel argues that a rational juror might have concluded that FCN and “Five Serve” were different entities and that FCN
might have been located within California. We think, though, that the correct meaning was obvious from the context.
Moreover, the overall thrust of Flanagan’s testimony was that all checks drawn on an account at this bank travelled via
interstate wire. For example, when asked whether “that transaction that you just described [would] still happen even
though both the banks are in California,” Flanagan replied, “[y]es, it would. We did not have direct clearing.”

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

